                    Office of Inspector General, USDA
                       Investigation Developments

>> November 13, 2006 <<


Grocery Store Employees in New Jersey Sentenced for Food Stamp Fraud

On October 20, 2006, a retail grocery store employee was sentenced in U.S. District
Court, District of New Jersey, for Conspiracy to Commit Food Stamp Fraud. The
employee was sentenced to 21 months of incarceration and ordered to pay $370,716 in
restitution. The OIG investigation determined that three employees of the retail grocery
store discounted Electronic Benefit Transfer benefits for cash. Previously, on October 4,
2006, the other two retail grocery store employees were also sentenced to pay $370,716
in restitution and were placed on probation for a term of 36 months. The OIG
investigation was worked jointly with the U.S. Secret Service.

Texas Producer and Corporation Sentenced, Ordered to pay $362,775 for Farm
Subsidy Fraud

A Texas producer and a corporation were sentenced in U.S. District Court, Northern
District of Texas, on September 29, 2006, to serve 60 months of probation and were
ordered to pay $362,775 in restitution. The OIG investigation disclosed that during 2000,
individuals operating independently, as a corporation, and as other farming entities,
fraudulently participated in the Risk Management Agency (RMA) and Farm Service
Agency (FSA) programs. The parties shifted their 2000 cotton production (totaling
approximately $400,000) and reported the same production for program payments. In
June 2006 the producer pled guilty to misprision of a felony.

Woman in Mississippi Sentenced for Fraudulent Receipt of Hurricane Disaster
Benefits

On October 3, 2006, a woman was sentenced in U.S. District Court, Southern District of
Mississippi, to serve 36 months of probation and was ordered to pay $4,000 in restitution
to the Federal Emergency Management Agency (FEMA). The OIG investigation
disclosed that three individuals fraudulently received FEMA emergency assistance
related to a damaged dwelling that was unoccupied for the prior 2 years. The ineligible
applicants included the woman who submitted the application, a food stamp recipient
serving prison time in the State penitentiary, and an individual residing in a drug
rehabilitation unit. In July 2006 the woman pled guilty to making false claims to FEMA
in relation to Hurricane Katrina disaster benefits.
                                                                                       2


Former Grocery Store Owner in New York Sentenced for Food Stamp Trafficking
and Money Laundering; Ordered to Pay $560,000 to USDA and Forfeit $485,000

On September 12, 2006, a former retail grocery store owner was sentenced in U.S.
District Court, Western District of New York, on charges of Food Stamp Trafficking and
Money Laundering. The former store owner was sentenced to 60 months’ probation,
ordered to make $560,000 in restitution to USDA, and ordered to forfeit $485,000 in cash
seized by OIG at the time of arrest. The OIG investigation disclosed that from October
2004 through March 2005, the former grocery store owner redeemed over $1.3 million
dollars in illegally obtained food stamp benefits. In April 2005, the former store owner
was arrested and in June 2005 OIG and the IRS executed bank seizure warrants on the
store’s bank accounts and seized $530,493 in cash.

Retail Grocer in North Carolina Sentenced, Ordered to Pay $131,845 for WIC
Fraud

On September 5, 2006, a retail grocery store owner was sentenced in U.S. District Court,
Eastern District of North Carolina, to 30 months’ incarceration and was ordered to pay
$131,845 in restitution. The OIG investigation disclosed that the grocery store owner
was involved in a $200,000 Woman, Infants and Children Program (WIC) fraud scheme
and the sale of illegal pharmaceutical drugs. The owner was charged with conspiracy to
commit fraud involving USDA’s WIC Supplemental Nutritional Food Program and
trafficking in illegal pharmaceutical drugs. In May 2006 he pled guilty to conspiracy to
commit wire fraud by selling and depositing the WIC vouchers into the banking system.

Two Men in Florida Sentenced for Smuggling Contaminated Produce

On August 23, 2006, two men were sentenced in U.S. District Court, Southern District of
Florida, to 6 months’ home confinement, 24 months’ probation, 150 hours of community
service, and ordered to pay a fine of $3,500. The OIG investigation disclosed that a
produce importer was involved in a substitution/smuggling scheme to introduce produce
contaminated with pesticides into U.S. commerce in violation of Federal law. In March
2006 the men were charged with conspiracy, entry of goods by means of false statements,
and smuggling goods into the U.S. This OIG investigation was conducted jointly with
the Food and Drug Administration and the Department of Homeland
Security/Immigration & Customs Enforcement.
